      Department of Homeland Security




                Independent Review of the
             U.S. Coast Guard’s Reporting of
            FY 2011 Drug Control Obligations




OIG-12-31                                      January 2012

                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                      JAN 30 2012 

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the Department.

This report presents the results of the review of the Table of FY 2011 Drug Control Obligations and
related disclosures of the U.S. Coast Guard for the fiscal year ended September 30, 2011, for the
Office of National Drug Control Policy. We contracted with the independent public accounting firm
KPMG LLP (KPMG) to perform the review. U.S. Coast Guard management prepared the Table of
FY 2011 Drug Control Obligations and related disclosures to comply with requirements of the
Office of National Drug Control Policy Circular, Drug Control Accounting, dated May 1, 2007. Due
to the U.S. Coast Guard’s inability to provide assurance as to the integrity of the financial data in the
detailed accounting submissions, KPMG was unable to complete its review and report on the Table
of FY 2011 Drug Control Obligations and related disclosures.

We trust this report will result in more effective, efficient, and economical operations. We express
our appreciation to all of those who contributed to the preparation of this report.




                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




January 20, 2012

Ms. Anne Richards
Assistant Inspector General for Audits
Office of the Inspector General
U.S. Department of Homeland Security
Stop 2600 (AUD/FM)
245 Murray Drive Building 410
Washington, DC 20528


Dear Ms. Richards:

We were engaged to review the Table of FY 2011 Drug Control Obligations and related disclosures,
and the accompanying management’s assertions of the U.S. Department of Homeland Security’s
(DHS) United States Coast Guard (USCG) for the year ended September 30, 2011. USCG
management is responsible for the Table of FY 2011 Drug Control Obligations, related disclosures,
and the assertions.

The Office of National Drug Control Policy (ONDCP) Circular, Drug Control Accounting, dated
May 1, 2007 (the Circular), requires management to disclose any material weaknesses or other findings
affecting the presentation of data reported, and to make certain assertions related to the financial
systems supporting the drug methodology used in compilation of the Table of FY 2011 Drug Control
Obligations and related disclosures. Management reported that it cannot provide assurances as to the
integrity of the financial data contained in its Table of FY 2011 Drug Control Obligations and related
disclosures; and management has not provided an assertion that the financial systems supporting the
drug methodology yield data that fairly present, in all material respects, aggregate drug-related
obligation estimates.

In accordance with applicable professional standards, without certain representations made by
management, including the integrity of the financial data and its systems, we are unable to complete
our review of USCG’s Table of FY 2011 Drug Control Obligations, related disclosures, and
management’s assertions. Accordingly, we are unable to provide an Independent Accountants’ Report
on the USCG’s Table of FY 2011 Drug Control Obligations, related disclosures, and management’s
assertions for the year ended September 30, 2011, pursuant to the requirements of the Circular.


Sincerely,



Scot G. Janssen,
Partner




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
U.S. Department o~.                   Commandant
                                      United States Coast Guard
                                                                      2100 Second Street, S.w.
                                                                      Washington, DC 20593-0001
Homeland Security
                                                                      Staff Symbol: CG-821
                                                                      Phone: (202) 372-3512
United States                                                         Fax: (202)372-2311
Coast Guard                                                           Email:Rebecca.E.Ore@uscg.mil




                                                                     7110
                                                                            JAN 1 7 2012
Mr. John D. Shiffer
Department of Homeland Security
Financial Management Division
Office of the Inspector General



Dear Mr. Shiffer,

In accordance with the Office of National Drug Control Policy Circular: Annual Accounting of
Drug Control Funds dated May 1,2007, enclosed is the Coast Guard's report ofFY 2011 drug
control obligations, methodology, and assertions.

If you require further assistance on this information, please contact LCDR Lexia Littlejohn at
(202) 372-3513.

                                              Sincerely,




                                          11n~~tGUard
                                              Chief, Office of Budget and Programs




Copy: DHS Budget Office

Enclosures:
       (l) USCG FY 2011 Detailed Accounting Submission
       (2) Independent Auditors' Report Exhibit I - Material Weaknesses in Internal Control-
           U.S. Coast Guard
       (3) 2011 USCG Assurance Statement
                                               Enclosure 1

                         U.S. DEPARTMENT OF HOMELAND SECURITY
                                UNITED STATES COAST GUARD
                   Detailed Accounting Submission of FY 2011 Drug Control Funds


   DETAILED ACCOUNTING SUBMISSION
   A. Table of FY 2011 Drug Control Obligations

                         RESOURCE SUMMARY
                         (Dollars in Millions)                                  2011 Actual
             Drug Resources by Drug Control Function:                           Obligations
                   Interdiction                                                  $1,405.661
                   Research and Development                                          $2.395
                                            Total Resources by Function          $1,408.056

             Drug Resources by Budget Decision Unit:
                   Operating Expenses                                              $739.622

                    Reserve Training                                                 $14.225

                    Acquisition, Construction, and Improvements                    $651.814

                    Research, Development, Test and Evaluation                        $2.395

                                           Total Drug Control Obligations         $1,408.056

1. Drug Methodology
In FY 2000, a methodology known as the Mission Cost Model (MCM) was developed to present United
States Coast Guard (Coast Guard) missions using activity based cost accounting principles. The MCM
is an estimate of operational mission costs allocated across Coast Guard’s 11 mission/programs. The
information reported is timely and is derived from an allocation process involving the Coast Guard’s
financial statement information. Further, the Coast Guard has developed an operating hour baseline as a
method to approximate the future allocation of resource hours for each asset class to multiple Coast
Guard missions. This is the basis for funding allocations in budget projections. The operating hour
allocation, or baseline, is developed and modified based upon budget line item requests and national
priorities. Coast Guard is required to report its drug control funding to the Office of National Drug
Control Policy (ONDCP) in four appropriations, categorically called decision units. The Coast Guard’s
drug control funding estimates are computed by closely examining the decision units that are comprised
of: Operating Expenses (OE); Reserve Training (RT); Acquisition, Construction, and Improvement
(AC&I); and Research, Development, Test, and Evaluation (RDT&E). Each decision unit contains its
own unique spending authority and methodology.
1. Drug Methodology (cont.)

For example, AC&I includes funding that remains available for obligation up to five years after
appropriation and RDT&E includes funding which does not expire. Unless stipulated by law, OE and
RT funding must be spent in the fiscal year it is appropriated. The mechanics of the MCM methodology
used to derive the drug control information for each decision unit's drug control data follows.

Mission Cost Allocations

OE funds are used to operate Coast Guard facilities; maintain capital equipment; improve management
effectiveness; and recruit, train, sustain, and compensate, an active duty military and civilian workforce.
The basic MCM is therefore based on OE asset costs and support activities. In the OE budget, the amount
allocated to the drug interdiction program is derived by allocating a share of the actual expenditures based
upon the percentage of time aircraft, cutters, and boats spent conducting drug interdiction activities. The
Coast Guard tracks the resource hours spent on each of the 11 Coast Guard statutory missions by using a
web-based Abstract of Operations (AOPS) data collection and report system. Coast Guard AOPS data is
used to develop the amount of time each asset class spends conducting each Coast Guard mission. Using
financial data gathered from over 3,000 cost centers around the United States along with the AOPS
information, the Coast Guard is able to allocate OE costs to each of the 11 statutory missions consisting of:
Drug Interdiction; Migrant Interdiction; Ports, Waterways and Coastal Security; Other Law Enforcement;
Defense Readiness; Search and Rescue; Marine Safety; Ice Operations; Marine Environmental Protection;
Living Marine Resources; and Aids to Navigation. Allocation of RT funding to the Coast Guard’s drug
interdiction mission is done using the same methodology as the OE appropriation.

The methodology used to develop the drug funding estimate for AC&I is systematically different from that
of OE and RT because AC&I is a multi-year appropriation. AC&I drug funding levels for budget authority
(BA) and obligations are developed through an analysis in which each project/line item is associated with a
discrete driver that best approximates the contribution that asset or project will contribute to each of the
Coast Guard’s 11 statutory missions when the asset or project is delivered . BA is derived from the agency's
annual enacted appropriation and obligation data is derived from the final financial accounting Report on
Budget Execution (SF-133). The methodology used to develop the drug-funding estimate for RDT&E is
similar to that of AC&I.

Mission Cost Model Application & Results – The two chief input drivers to the MCM are:
       Financial costs of each Coast Guard asset and other expenses areas, made up of direct, support and
       overhead costs.
       FY 2011 AOPS hours – The support and overhead costs for each asset and other expenses element
       is applied to hours projected from the FY 2011 AOPS. These costs are reflective of the more static
       conditions of Coast Guard operations relative to the support functions and administrative oversight.
       The direct costs are applied to the final AOPS hours to show the dynamic flow of operations
       experienced during FY 2011. The overall effect of the computed amount from the static baseline
       and reality of AOPS results in a percentage to drive Coast Guard OE expenditures allocation across
       11 statutory missions.
Normalize to Budget Authority or Obligations – The program percentages derived from the MCM are then
applied to total OE, RT, AC&I and RDT&E FY 2011 BA and obligations (see Attachments A, B, C and D,
respectively), depending upon the reporting requirement.


                                                      2
2. Methodology Modifications

The methodology described above is consistent with the previous year.

3. Material Weaknesses or Other Findings

As identified in the Department of Homeland Security (DHS) Chief Financial Officers (CFO) Act of 1990
audit and feedback provided in the enclosed FY 2011 Independent Auditors’ Report: Exhibit I – Material
Weaknesses in Internal Control over Financial Reporting (Enclosure 2) and described in the enclosed FY
2011 U.S. Coast Guard Assurance Statement (Enclosure 3), the Coast Guard cannot assert to the reliability
of general property, plant, and equipment (PP&E), environmental liabilities, and their related effects, if
any, on other balances presented in the DHS financial statements as of September 30, 2011. As such, the
Coast Guard cannot provide assurances as to the integrity of the financial data contained in this report.
The Coast Guard’s Financial Strategy for Transformation and Audit Readiness (FSTAR) continues to guide
the Mission Action Plans that strengthen the internal controls leading to assurance over financial
information. This effort seeks to attack the root causes and implement long term solutions of the identified
material weaknesses and other financial management issues. The Coast Guard will continue to build on its
ongoing successes achieved in supporting the completeness, existence, and valuation of its vessels, aircraft,
and small boat assets and the significant progress to incorporate vehicles. The Coast Guard will use lessons
learned in these areas and the momentum attained to achieve its objective of supporting the auditability of
the general PP&E line item by September 30, 2012.

Since environmental liabilities depend substantially on capitalized property efforts, the Coast Guard will
refine the estimated liabilities associated with real property, such as lighthouses, buildings, land, and
structures in FY 2012. This effort is dependent on the development of a complete inventory of Coast Guard
real property assets. Furthermore, the Coast Guard will implement the 11-month environmental liabilities
program management plan to develop initial cost-to-study estimates for environmental liabilities associated
with the Coast Guard’s known assets. Cost-to-study estimates represent the appropriate minimum liability
for known conditions for which there is insufficient cost data to estimate the cost to remediate the known
condition. The Coast Guard will also develop the groundwork for future refinement and sustainment of
estimates and a comprehensive program to identify and properly assess conditions at Coast Guard sites in
accordance with the 11-month plan. Additionally, the Coast Guard will pursue improved internal controls
in the collection of our Abstract of Operations information necessary to give assurance to the non-financial
data used to produce a portion of this report. Of note, due to ongoing remediation efforts guided by
FSTAR, the Coast Guard helped the Department of Homeland Security achieve a qualified audit opinion on
the consolidated Balance Sheet as of November 15, 2011.
4. Reprogrammings or Transfers
During FY 2011, the Coast Guard had no transfers or reprogramming actions affecting drug related budget
resources in excess of $1 million.

5. Other Disclosures
The following provides a synopsis of the United States Coast Guard’s FY 2011 Drug Control Funds
reporting which describes:



                                                     3

   1.	 The agency’s overall mission and the role of drug interdiction efforts within the Coast Guard's
        multi-mission structure; and
   2. The Coast Guard’s Drug Budget Submission.

Coast Guard Mission
The Coast Guard is a military service with mandated national security and national defense responsibilities
and the United States' leading maritime law enforcement agency with broad, multi-faceted jurisdictional
authority. Due to the multi-mission nature of the Coast Guard and the necessity to allocate the effort of a
finite amount of assets, there is a considerable degree of asset “cross-over” between missions. This cross­
over contributes to the challenges the Coast Guard faces when reporting costs for its mission areas.

Coast Guard's Drug Budget Submission

In the annual National Drug Control Strategy (NDCS) Budget Summary, all agencies present their drug
control resources broken out by function and decision unit. The presentation by decision unit is the one
that corresponds most closely to the Coast Guard’s congressional budget submissions and appropriations.
It should be noted and emphasized that the Coast Guard does not have a specific appropriation for drug
interdiction activities. As such, there are no financial accounting lines for each of Coast Guard’s 11
statutory missions. All drug interdiction operations, capital improvements, reserve support, and research
and development efforts are funded out of general Coast Guard appropriations.

For the most part, the Coast Guard drug control budget is a reflection of the Coast Guard’s overall budget.
The Coast Guard’s OE appropriation budget request is incremental, focusing on the changes from the prior
year base brought forward. The Coast Guard continues to present supplementary budget information
through the use of the MCM, which allocates base funding and incremental requests by mission.

This general purpose MCM serves as the basis for developing drug control budget estimates for the OE and
RT appropriations and provides allocation percentages used to develop the drug control estimates for the
AC&I and RDT&E appropriations and the process is repeatable. Similarly, this is the same methodology
used to complete our annual submission to the Office of National Drug Control Policy (ONDCP) for the
NDCS Budget Summary.




                                                     4

B. Assertions

1) Obligations by Budget Decision Unit – N/A. As a multi-mission agency, the Coast Guard is
   exempt from this reporting requirement.

2) Drug Methodology – The Coast Guard does not have a discrete drug control appropriation and its
   financial systems are not structured to accumulate accounting data by operating programs or
   missions areas. However, the methodology used to produce the drug interdiction funding in this
   report is a repeatable mission spread process which the Coast Guard incorporates throughout its
   annual budget year submissions and mission related reports. These submissions include: Resource
   Allocation Proposal (RAP), Resource Allocation Decision (RAD) and the Office of Management
   and Budget’s (OMB) MAX budget update of Coast Guard’s Congressional Budget submissions and
   the DHS CFO Statement of Net Cost report. The criteria associated to this assertion are as follows:

   a)	 Data – The percentage allocation results derived from its MCM methodology are based on the
       most current financial and AOPS data available.

   b)	 Other Estimation Methods – No other estimation methods are used.

   c)	 Financial Systems – Financial data used in this methodology are derived from CAS and SFLC
       systems. No other financial system or information is used in developing program or mission area
       allocations. The Coast Guard cannot provide assurances as to the integrity of the financial data
       contained in this report since it has not fully implemented corrective actions to remediate
       weaknesses identified by the independent auditors during the annual DHS CFO Act audits. As a
       result, the Coast Guard could not assert to the completeness, existence (validity), accuracy,
       valuation or presentation of its financial data in this report.

3) Application of Drug Methodology - The methodology disclosed in this section was the actual
   methodology used to generate the drug control obligation funding table required by ONDCP
   Circular: Drug Control Accounting May 1, 2007 Section 6A. Documentation on each decision unit
   is provided.

4) Reprogrammings or Transfers - During FY 2011, Coast Guard had no transfers or reprogramming
   actions affecting drug-related budget resources in excess of $1 million.

5)	 Fund Control Notices –ONDCP did not issue Coast Guard a Fund Control Notice for FY 2011.




                                                  5

                                                                                            Attachment A

                                     OPERATING EXPENSES (OE)
                                   MISSION COST MODEL OUTPUT:
                                                                                  (dollars in thousands)
                                                                                         FY2011
                                                                                Oblie:ations     % of total

   1. Search and Rescue (SAR)                                                      745,993         10.80%

   2. Marine Safety (MS)                                                           593,962          8.60%)

   3. Aids to Navigation (ATON)                                                  1,287,463         18.64%)

   4. Ice Operations (10)                                                          151,060          2.190/0

   5. Marine Environmental Protection (MEP)                                        165,585          2.400/0

   6. Living Marine Resources (LMR)                                                642,880          9.31°1<.

   7. Drug Interdiction                                                            739,622         10.71°1<.

   8. Other Law Enforcement (OTH-LE)                                               117,304          1.700/0

   9. Migrant Interdiction                                                         469,136          6.79%

 10. Ports, Waterways & Coastal Security (PWCS)                                  1,407,502         20.38°1<.

 11. Defense Readiness                                                             586,951          8.50°1<.
                                                          Total OE Obligations $ 6,907,458           100°1<.

Note: Includes -$58,812 recoveries of prior year obligations.




                                                                6
                                                                     Attachment B


                           RESERVE TRAINING (RT)
                        MISSION COST MODEL OUTPUT:
                                                           (dollars in thousands)
                                                                  FY2011
                                                         Oblie:ations     % of total

 1. Search and Rescue (SAR)                                   14,347        10.80%

 2. Marine Safety (MS)                                        11,423         8.60%

 3. Aids to Navigation (ATON)                                 24,761        18.64%)

 4. Ice Operations (10)                                        2,905         2.19%

 5. Marine Environmental Protection (MEP)                      3,184         2.40%

 6. Living Marine Resources (LMR)                             12,364         9.31 %

 7. Drug Interdiction                                         14,225        10.71%)

 8. Other Law Enforcement (OTH-LE)                             2,258         1.70%)

 9. Migrant Interdiction                                       9,023         6.79%)

10. Ports, Waterways & Coastal Security (PWCS)                27,070        20.38%)

11. Defense Readiness                                         11,289         8.50°1«.
                                    Total RT Obligations $   132,849          100°1«.




                                            7
                                                                                         Attachment C


    ACQUISITION, CONSTRUCTION and IMPROVEMENTS
            (AC&I) MISSION COST MODEL OUTPUT:
                                                                               (dollars in thousands)
                                                                                      FY2011
                                                                            Obligations       % of total

    1. Search and Rescue (SAR)                                                 168,685            8.03%

   2. Marine Safety (MS)                                                        30,350            1.44%.

   3. Aids to Navigation (ATON)                                                 38,042            1.81°,10

   4. Ice Operations (10)                                                         2,275           0.11%

   5. Marine Environmental Protection (MEP)                                      12,277           0.58%

   6. Living Marine Resources (LMR)                                            401,580          19.11 %

   7. Drug Interdiction                                                        651,814          31.02%

   8. Other Law Enforcement (OTH-LE)                                           100,182            4.77%

   9. Migrant Interdiction                                                     314,070          14.94%

 10. Ports, Waterways & Coastal Security (PWCS)                                185,281            8.820/0

 11. Defense Readiness                                                         197,024            9.38%.
                                                    Total AC&I Obligations $ 2,101,580             100°,10

Note: Includes -$46,946,111 recoveries of prior year obligations.




                                                                    8
                                                                                           Attachment D


      RESEARCH, DEVELOPMENT, TEST and EVALUATION
            (RDT&E) MISSION COST MODEL OUTPUT:
                                                                                (dollars in thousands)
                                                                                       FY2011
                                                                             Obli2ations       % of total

   1. Search and Rescue (SAR)                                                      1,424           6.93%

   2. Marine Safety (MS)                                                           4,176          20.34%

   3. Aids to Navigation (ATON)                                                      165           0.80%

   4. Ice Operations (10)                                                            125           0.61°1c.

   5. Marine Environmental Protection (MEP)                                        8,466          41.23%

   6. Living Marine Resources (LMR)                                                1,171           5.70%

   7. Drug Interdiction                                                            2,395          11.66°1c.

   8. Other Law Enforcement (OTH-LE)                                                 384           1.87%

   9. Migrant Interdiction                                                           902           4.390/0

 10. Ports, Waterways & Coastal Security (PWCS)                                    1,008           4.910/0

 11. Defense Readiness                                                              320            1.56°1c.
                                           Total RDT&E Obligations       $       20,536             100%

Note: Includes -$2,475,124 recoveries from prior year obligations.




                                                                     9
                                                                                             Enclosure          (2)
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

I-A Financial Reporting
Background: In previous years, we reported that the U.S. Coast Guard (Coast Guard) had several internal
control deficiencies that led to a material weakness in financial reporting. In response, the Coast Guard
developed its Financial Strategy for Transformation and Audit Readiness (FSTAR), which is a
comprehensive plan that includes various Mission Action Plans (MAPs) designed to identify and correct
conditions that are causing control deficiencies and, in some cases, preventing the Coast Guard from
preparing auditable financial statements.
The Coast Guard made progress in fiscal year (FY) 2011, by completing its planned corrective actions over
selected internal control deficiencies. Specifically, the Coast Guard implemented new policies and
procedures, and automated tools to improve internal controls and the reliability of its financial statements
throughout FY 2011. These remediation efforts allowed management to make new assertions in FY 2011
related to the auditability of its financial statement balances, including $6.3 billion of fund balance with
Treasury. The FSTAR calls for continued remediation of control deficiencies and reconciliation of
balances in FY 2012. Consequently, some conditions of the financial reporting control weaknesses that we
reported in the past remain uncorrected at September 30, 2011.
Conditions: The Coast Guard does not have properly designed, implemented, and effective policies,
procedures, processes, and controls surrounding its financial reporting process, as necessary, to:
        Support beginning balance and year-end close-out related activity, and the cumulative results of
        operations analysis in its general ledgers individually and/or in the aggregate.
        Ensure that all journal entries and edit queries impacting the general ledger are adequately
        researched and supported. Specifically, documenting that adequate research regarding the
        underlying cause(s) was performed, and maintaining the appropriate transactional-level supporting
        detail.
        Ensure that all accounts receivable balances exist, are complete and accurate, and properly
        presented in the financial statements. For example, the underlying data used to support accounts
        receivable balances was not always accurate (e.g., incorrect standard rates applied), reimbursable
        activity may not be identified and recorded timely due to intra-governmental reconciliation
        difficulties, and accounts receivable activity is not always properly recorded in the financial
        statements on a timely basis.
        Ensure all financial statement information (e.g., statement of net cost, statement of budgetary
        resources, statement of changes in net position) and related disclosures submitted for incorporation
        in the DHS consolidated financial statements are accurate and complete.
        Ascertain that intra-governmental activities and balances are identified, monitored, properly
        recorded, and differences, especially with agencies outside DHS, are being resolved in a timely
        manner in coordination with the Department’s Office of Financial Management (OFM).
Cause/Effect: The Coast Guard has not developed and implemented an effective general ledger system.
The Core Accounting System (CAS), Aircraft Logistics Management Information System (ALMIS), and
Naval Engineering Supply Support System (NESSS) general ledgers do not comply with the requirements
of the Federal Financial Management Improvement Act of 1996 (FFMIA). The general ledgers do not
allow for compliance with the United States Standard General Ledger (USSGL) at the transaction level,
and period-end and opening balances are not supported by transactional detail in the three general ledgers.
The conditions described below in Comment I-B, Information Technology Controls and Financial Systems
Functionality contribute to the financial reporting control deficiencies, and make correction more difficult.
Some remediation initiatives implemented in FY 2011 were not fully implemented for the entire year, and
the FSTAR calls for continued remediation in FY 2012.
Because of the conditions noted above, the Coast Guard and the Department were unable to provide
reasonable assurance that internal controls over financial reporting were operating effectively at September
30, 2011, and has acknowledged that pervasive material weaknesses and various internal control
deficiencies continue to exist in some key financial processes. Consequently, the Coast Guard cannot assert



                                                     I.1
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

to the reliability of general property, plant, and equipment, environmental liabilities, and their related
effects, if any, on other balances presented in the Department’s financial statements as of September 30,
2011.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit V.
Recommendations: We recommend that the Coast Guard:
1.	 Continue the implementation of the FSTAR and completion of MAPs, as planned;
2.	 Implement accounting and financial reporting processes including an integrated general ledger system
    that is FFMIA compliant; and
3.	 Establish new or improve existing policies, procedures, and related internal controls to ensure that:
    a.	 The year-end close-out process, reconciliations, and financial data and account analysis
        procedures are supported by documentation, including evidence of effective management review
        and approval, and beginning balances in the following year are determined to be reliable and
        auditable;
    b.	 All journal entries and edit queries impacting the general ledger are adequately researched and
        supported;
    c.	 Accounts receivable balances are complete and accurate, and properly presented in the financial
        statements;
    d.	 Financial statement disclosures submitted for incorporation in the Department of Homeland
        Security (DHS or Department) financial statements are accurate and complete; and
    e.	 All intra-governmental activities and balances are reconciled on a timely basis, accurately

        reflected in the financial statements, and differences are resolved in a timely manner in

        coordination with the Department’s Office of Financial Management (OFM).


I-B 	Information Technology Controls and Financial Systems Functionality
Background: Information Technology (IT) general and application controls are essential for achieving
effective and reliable reporting of financial and performance data. IT general controls (ITGCs) are tested
using the objectives defined by the U.S. General Accountability Office (GAO)’s Federal Information
System Controls Audit Manual (FISCAM), in five key control areas: security management, access control,
configuration management, segregation of duties, and business continuity. Our procedures included a
review of the Coast Guard’s key ITGC environments.
We also considered the effects of financial systems functionality when testing ITGCs. We noted that
financial system limitations contribute to the Coast Guard’s challenge of addressing systemic internal
control weaknesses, strengthening the control environment, and complying with relevant Federal financial
system requirements and guidelines, notably FFMIA, Office of Management and Budget (OMB) Circular
A-127, Financial Management Systems, and DHS policies.
In FY 2011, our ITGC control testing identified 21 findings, of which 16 were repeat findings from the
prior year and 5 were new findings. In addition, we determined that Coast Guard remediated 12 findings
identified in previous years. Specifically, the Coast Guard took actions to improve aspects of its IT security
controls, including password configurations, data center physical security, and audit log reviews.
Conditions: Our findings related to financial system controls and functionality are as follows:
Related to IT controls:
Conditions: We noted that IT security access controls and configuration management controls supporting
Coast Guard’s financial systems are not operating effectively, and continue to present risks to DHS
financial data confidentiality, integrity, and availability. Financial data in the Coast Guard general ledgers
may be compromised by automated and manual changes that are not adequately controlled. For example,
the Coast Guard uses an IT scripting process to address functionality and data quality issues within its core



                                                      I.2
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

financial system, as necessary, to process and report financial data. During our FY 2011 testing, we noted
that some previously identified IT scripting control deficiencies were remediated, while other deficiencies
continue to exist. Four key areas continue to impact the Coast Guard IT script control environment, as
follows:
        Script testing – limited guidance exists to guide Coast Guard staff in the development of test plans
        and to support the completion of functional testing;
        Script audit logging – controls supporting audit logs are not consistently implemented to log
        privileged user actions, and to ensure that only approved scripts are executed;
        Script approvals and recertification – the recertification reviews conducted by the Coast Guard
        were not comprehensive to include all user roles associated with the Mashups and Dimensions
        systems. Additionally, the documentation retained in support of the reviews was not adequately
        completed in accordance with policy throughout the year; and
        Script recording – test and production data is not consistently recorded, and there are limited
        controls to ensure data accuracy. Additionally, field reconciliation discrepancies are not always
        consistently documented and explained.
We also noted weaknesses in the script change management process as it relates to the Internal Control
over Financial Reporting (ICOFR) process (e.g., the financial statement impact of the changes to Coast
Guard’s core accounting system through the script change management process). The Coast Guard has not
fully developed and implemented procedures to ensure that a script, planned to be run in production, has
been through an appropriate level of review to fully assess if it has a financial statement impact.
All of our ITGC findings are described in detail in a separate Limited Official Use (LOU) letter provided to
the Coast Guard and DHS management.
Related to financial system functionality:
We noted many cases where financial system functionality is inhibiting the Coast Guard’s ability to
implement and maintain internal controls, notably IT application controls supporting financial data
processing and reporting. Financial system functionality limitations increase the difficulty of compliance
with Federal financial system requirements and guidelines, notably FFMIA and OMB Circular A-127.
Examples of financial system functionality conditions we identified include:
        As noted above, Coast Guard’s core financial system configuration management process is not
        operating effectively due to inadequate controls over IT scripts. The IT script process was
        instituted as a solution primarily to compensate for system functionality and data quality issues.
        Financial system audit logs are not readily generated and reviewed, as some of the financial
        systems continue to lack the capability to perform this task efficiently.
        The Coast Guard is unable to routinely query its various general ledgers to obtain a complete
        population of financial transactions, and consequently must create many manual custom queries
        that delay financial processing and reporting processes.
        A key Coast Guard financial system is limited in processing overhead cost data and depreciation
        expenses in support of the property, plant and equipment (PP&E) financial statement line item.
        Production versions of financial systems are outdated and do not provide the necessary core
        functional capabilities (e.g., general ledger capabilities).
        Financial systems functionality limitations are preventing the Coast Guard from establishing
        automated processes and application controls that would improve accuracy, reliability, and
        facilitate efficient processing of certain financial data such as:
        -    Ensuring proper segregation of duties and access rights, such as automating the procurement
             process to ensure that only individuals who have proper contract authority can approve
             transactions or setting system access rights within the fixed asset subsidiary ledger;


                                                     I.3
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

        -    Maintaining sufficient data to support Fund Balance with Treasury related transactions,
             including suspense activity;
        -    Maintaining adequate posting logic transaction codes to ensure that transactions are recorded
             in accordance with generally accepted accounting principles (GAAP); and
        -	    Tracking detailed transactions associated with intragovernmental business and eliminating the
             need for default codes such as Trading Partner Identification Number that cannot be easily
             researched.
Cause/Effect: The current system configurations for many Coast Guard financial systems cannot be easily
reconfigured to meet FFMIA, OMB Circular A-127, and DHS security requirements. The conditions
supporting our findings collectively limit the Coast Guard’s ability to process, store, and report financial
data in a manner to ensure accuracy, confidentiality, integrity, and availability. Some of the weaknesses
may result in material errors in the Coast Guard’s financial data that are not detected in a timely manner
through the normal course of business. In addition, because of the presence of IT control and financial
system functionality weaknesses, there is added pressure on mitigating controls to operate effectively.
Because mitigating controls are often more manually focused, there is an increased risk of human error that
could materially affect the financial statements. See Comment I-A, Financial Reporting, for a discussion
of the related conditions causing noncompliance with the requirements of FFMIA. Configuration
management weaknesses are also among the principle causes of the Coast Guard’s inability to support
certain financial statement balances for audit purposes.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit V.
Recommendations: We recommend that the DHS Office of Chief Information Officer (OCIO), in
coordination with the Office of the Chief Financial Officer (OCFO):
1.	 Continue to develop and implement policies, procedures, and processes to address scripting
    weaknesses, including weaknesses related to functional testing, audit logging, approvals, and
    recertifications, and the documentation and review of script records.
2.	 For new and updated script procedures, revise associated trainings and provide the training to impacted
    staff.
3.	 Continue to improve the script change management process and other associated internal controls as
    they relate to the financial statement impact of the changes to the CAS suite of financial databases.
4.	 Make necessary improvements to financial management systems and supporting IT security controls.
Specific recommendations are provided in a separate Limited Official Use letter provided to Coast Guard
management.

I-C Property, Plant, and Equipment
Background: The Coast Guard maintains approximately 49 percent of all DHS property, plant, and
equipment (PP&E), including a large fleet of boats and vessels. Many of the Coast Guard’s assets are
constructed over a multi-year period, have long useful lives, and undergo extensive routine servicing that
may increase their value or extend their useful lives. DHS stewardship PP&E primarily consists of Coast
Guard heritage assets, which are PP&E that are unique due to historical or natural significance; cultural,
educational, or artistic (e.g., aesthetic) importance; or architectural characteristics. Coast Guard heritage
assets consist of both collection type heritage assets, such as artwork and display models, and non-
collection type heritage assets, such as lighthouses, sunken vessels, and buildings.
In FY 2011, the Coast Guard continued to execute remediation efforts to address PP&E process and control
deficiencies, specifically those associated with vessels, small boats, aircraft, and select construction in
process (CIP) projects, and also related to the inventory of heritage assets. Inventory procedures were
performed in FY 2011 to assist in the substantiation of existence and completeness of PP&E balances,
however, they were not performed over all asset classes (e.g., land, buildings and other structures, and
electronic equipment). Additionally, an analysis to ensure the proper accounting of internal use software



                                                      I.4
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

has not yet been completed. Remediation efforts are scheduled to occur over a multi-year timeframe
beyond FY 2011. Consequently, many of the conditions cited below have been repeated from our FY 2010
report.
Conditions: The Coast Guard has not:
Regarding PP&E:
        Established accurate and auditable PP&E balances as of September 30, 2011. In cases where
        original acquisition documentation has not been maintained, the Coast Guard has not fully
        implemented methodologies and assumptions to support the value of all PP&E.
        Implemented appropriate controls and related processes to accurately, consistently, and timely
        record additions to PP&E, (including all costs necessary to place the asset in service e.g., other
        direct costs), transfers from other agencies, disposals in its fixed asset system, CIP activity, and
        support the valuation and classification of repairable PP&E.
        Implemented accurate and complete asset identification, system mapping, and tagging processes
        that include sufficient detail (e.g., serial number) to clearly differentiate and accurately track
        physical assets to those recorded in the fixed assets system.
        Developed and implemented a process to identify and evaluate all lease agreements to ensure that
        they are appropriately categorized as operating or capital, and properly reported in the financial
        statements and related disclosures.
        Properly accounted for improvements and impairments to buildings and structures, capital
        leaseholds, selected useful lives for depreciation purposes, and appropriate capitalization
        thresholds, consistent with GAAP.
        Identified and tracked all instances where PP&E accounting is not in compliance with GAAP and
        prepared a non-GAAP analysis that supports management’s accounting policies. This analysis
        should be maintained and available for audit.
Regarding Heritage Assets:
        Fully designed and implemented policies, procedures, and internal controls to support the
        completeness, existence, accuracy, and presentation assertions over data utilized in developing
        required financial statement disclosures and related supplementary information for heritage assets.
Cause/Effect: The Coast Guard has had difficulty establishing its opening PP&E balances primarily
because of poorly designed policies, procedures, and processes implemented more than a decade ago,
combined with ineffective internal controls, and IT functionality difficulties, See Comment I-B,
Information Technology Controls and Financial Systems Functionality. PP&E was not properly accounted
for or tracked, for many years preceding the Coast Guard’s transfer to DHS in FY 2003, and now the Coast
Guard is faced with the formidable challenge of performing retroactive analyses in order to properly
establish the existence, completeness, and accuracy of PP&E. Additionally, the fixed asset module of the
Coast Guard’s general ledger accounting system is not updated timely for effective tracking and reporting
of PP&E on an ongoing basis. As a result, the Coast Guard is unable to accurately account for its PP&E,
and provide necessary information to DHS OFM for consolidated financial statement purposes.
The Coast Guard management deferred correction of the stewardship PP&E (heritage assets) weaknesses
reported in previous years, and acknowledged that the conditions we reported in prior years remained
throughout FY 2011. The lack of comprehensive and effective policies and controls over the identification
and reporting of Stewardship PP&E could result in misstatements in the required financial statement
disclosures and related supplementary information for Stewardship PP&E.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit V.




                                                      I.5
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

Recommendations: We recommend that the Coast Guard:
Regarding PP&E:
1.	 Continue to implement remediation efforts associated with establishing PP&E balances, including
    designing and implementing inventory procedures over all PP&E categories and implementing
    methodologies, including the use of Statement of Federal Financial Accounting Standard (SFFAS) No.
    35, to support the value of all PP&E;
2.	 Implement appropriate controls and related processes to accurately and timely record additions to
    PP&E, transfers from other agencies, improvements, impairments, capital leases, indirect costs,
    depreciable lives, disposals in its fixed assets system, and valuation and classification of repairable
    PP&E. Additionally, continue to implement remediation efforts associated with control over the
    completeness, existence, accuracy, and valuation of all CIP related balances;
3.	 Adhere to procedures to timely update the fixed asset module of the Coast Guard’s general ledger
    accounting system to improve tracking and reporting of PP&E on an ongoing basis. Implement
    processes and controls to record any identifying numbers in the fixed asset system at the time of asset
    purchase to facilitate identification and tracking, and to ensure that the status of assets is accurately
    tracked in the subsidiary ledger;
4.	 Develop and implement a process to identify and evaluate all lease agreements to ensure that they are
    appropriately categorized as operating or capital, and are properly reported in the financial statements
    and related disclosures;
5.	 Ensure that appropriate supporting documentation is maintained and readily available to support PP&E
    life-cycle events (e.g., improvements, in-service dates, disposals, etc.); and
6.	 Perform and document a non-GAAP analysis for all instances where accounting policies are not in
    compliance with GAAP.
Regarding Stewardship PP&E:
1.	 Design and implement policies, procedures, and internal controls to support the completeness,
    existence, accuracy, and presentation and disclosure assertions related to the data utilized in
    developing disclosures and related supplementary information for Stewardship PP&E that is consistent
    with GAAP.

I-D Environmental and Other Liabilities
Background: The Coast Guard’s environmental liabilities consist of environmental remediation, cleanup,
and decommissioning and represent approximately $973 million or 93 percent of total DHS environmental
liabilities. Environmental liabilities are categorized as relating to shore facilities or vessels. Shore facilities
include any facilities or property other than ships (e.g., buildings, fuel tanks, lighthouses, small arms firing
ranges, etc.). During FY 2011, the Coast Guard continued to implement a multi-year remediation plan to
address process and control deficiencies related to environmental liabilities. In FY 2011, progress was
made with respect to implementation of policies and procedures; however, the majority of the conditions
cited in our FY 2010 report remain.
The Coast Guard estimates accounts payable by adjusting the prior year accrual estimate based on an
analysis of actual payments made subsequent to September 30 of the prior year.
The Coast Guard’s contingent legal liability balance is comprised of estimates associated with various
administrative proceedings, legal actions, and tort claims that arise in the normal course of Coast Guard
operations.
A component of Coast Guard’s accrued payroll and benefits liability balance is annual leave. Annual leave
is composed of earned annual and other vested compensatory leave that is accrued as it is earned.
Subsequently, as leave is taken, the liability is reduced.




                                                        I.6
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

Conditions: We noted the following internal control weaknesses related to environmental and other
liabilities.
The Coast Guard has not:
Regarding environmental liabilities:
         Fully supported the completeness, existence, and accuracy assertions of the data utilized in
         developing the estimate for the FY 2011 environmental liabilities account balance.
         Fully implemented policies and procedures to develop, prepare, record, and periodically review
         environmental liability estimates related to shore facilities and vessels. Specifically, procedures to
         confirm the existence of and legal liability for environmental damage/contamination sites, ensure
         the completeness of the environmental site universe, and verify the historical accuracy of
         assumptions used and estimates made for environmental liabilities.
Regarding other liabilities:
         Designed a methodology used to estimate accounts payable that considers and uses all potentially
         relevant current year data. As a result, current year data that may have a significant impact on the
         estimate could be overlooked and not identified until a true-up is performed in the subsequent year.
         Ensured that policies and procedures associated with management’s review of the underlying data
         supporting contingent legal and payroll liability (i.e., unfunded leave) balances are fully
         implemented and operating effectively. Specifically, deficiencies in management’s review
         attributed to errors in the underlying data supporting the interim contingent legal liability and
         unfunded leave balances.
Cause/Effect: The Coast Guard has not fully completed its remediation plans to develop, document, and
implement policies and procedures to, prepare, and record environmental liability estimates in accordance
with applicable accounting standards. As a result, the Coast Guard is unable to assert to the accuracy of its
environmental liability balances as stated in the September 30, 2011 balance sheet, and provide necessary
information to OFM for DHS financial statement purposes.
The Coast Guard’s methodology used to estimate accounts payable is based on the prior year estimate,
validated via a subsequent payment analysis, and does not consider or use all applicable current year data.
Without consideration of applicable current year data, a misstatement in the accounts payable estimate may
occur and not be identified in a timely manner (i.e., until a true-up is performed in a subsequent period).
The Coast Guard did not fully adhere to existing policies and procedures associated with the review of
underlying data supporting interim contingent legal and payroll liability balances. A lack of adequate
management review over the underlying data supporting account balances increases the risk that a
misstatement may go undetected.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit V.
Recommendations: We recommend that the Coast Guard:
Regarding environmental liabilities:
Fully implement policies, procedures, processes, and controls to ensure the identification and recording of
all environmental liabilities, to define the technical approach, to establish cost estimation methodology, and
to develop overall financial management oversight of its environmental remediation projects. Consider the
“Due Care” requirements defined in Federal Accounting Standards Advisory Board (FASAB) Technical
Release No. 2 Determining Probable and Reasonably Estimable for Environmental Liabilities in the
Federal Government. The policies should include procedures to:
1.   Ensure the proper calculation and review of cost estimates for consistency and accuracy in financial
     reporting, including the use of tested modeling techniques, use of verified cost parameters, and
     assumptions;
2.   Periodically validate estimates against historical costs; and



                                                       I.7
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control – U.S. Coast Guard

3.   Ensure that detailed cost data is maintained and reconciled to the general ledger.
Regarding other liabilities:
1.   Analyze and make appropriate improvements to the methodology used to estimate accounts payable to
     include potentially relevant current year data, and support all assumptions and criteria with appropriate
     documentation used to develop and subsequently validate the estimate for financial reporting; and
2.   Adhere to existing policies and procedures associated with the review of underlying data supporting
     contingent legal and accrued payroll and benefits liabilities.

I-E Budgetary Accounting
Background: Budgetary accounts are a category of general ledger accounts where transactions related to
the receipt, obligation, and disbursement of appropriations and other authorities to obligate and spend
agency resources are recorded. Each Treasury Account Fund Symbol (TAFS) with separate budgetary
accounts must be maintained in accordance with OMB and U.S. Treasury guidance. The Coast Guard has
over 80 TAFS covering a broad spectrum of budget authority, including annual, multi-year, and no-year
appropriations; and several revolving, special, and trust funds.
Conditions: We noted the following internal control weaknesses related to budgetary accounting, which
were repeated from our FY 2010 report. The Coast Guard has not:
         Fully implemented policies, procedures, and internal controls over its process for validation and
         verification of undelivered order (UDO) balances. Recorded obligations and UDO balances were
         not always complete, valid, or accurate, and proper approvals are not always maintained.
         Finalized and implemented policies and procedures to monitor unobligated commitment activity in
         CAS throughout the fiscal year.
         Designed and implemented effective procedures, processes, and internal controls to verify the
         completeness and accuracy of the year-end obligation “pipeline” which are obligations executed on
         or before September 30, but not recorded in the Coast Guard’s CAS, and to record all executed
         obligations. These deficiencies affected the completeness, existence, and accuracy of the year-end
         “pipeline” adjustment that was made to record obligations executed before year end.
Cause/Effect: A lack of fully implemented policies, procedures, and internal controls surrounding
commitments, obligations, UDOs, delivered orders, and disbursements has caused various control gaps in
the internal control environment. Weak controls in budgetary accounting, and associated contracting
practices increase the risk that the Coast Guard misstates budgetary balances, and unintentionally violate
the Anti-deficiency Act by overspending its budget authority. Also, the untimely release of commitments
may prevent funds from being used for other more critical needs.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit V.
Recommendations: We recommend that the Coast Guard:
1.   Continue to improve policies, procedures, and the design and effectiveness of controls in both
     accounting and contracting related to processing obligation transactions, and periodic review and
     validation of UDOs. Emphasize to all fund and program managers the need to perform effective
     reviews of open obligations, obtain proper approvals, and retain supporting documentation;
2.   Finalize policies and procedures to periodically review commitments, and make appropriate
     adjustments in the financial system; and
3.   Improve procedures, processes, and internal controls to verify the completeness and accuracy of the
     year-end obligation “pipeline” adjustment to record all executed obligations for financial reporting.




                                                      I.8
Enclosure (3)
   Military Payroll, and Actuarial Mcdical and Pension Liabilities. The assessment
   also included operational effectivcness testing around the Core Accounting Suite
   script management process. The results of testing were documcnted in the
   Summary of Aggregated Deficiencies and have been provided to the Department
   as required.

Based on the scope of this assessment, the USCG provides reasonable assurance that
compensating measures were effective, with the exception ufthe following
reportable conditions found:

a) Property Management: The USCG is unable to assert to internal controls over
   the Acquisition, Construction, and Improvement (AC&l) Construction in Progress
   (erp) and Real Property processes. In FY 20 II, the USCG supported the
   accuracy of the Personal Property balance, executed two additional Coast Guard·
   wide physical invemories, and performed observations of internal controls over
   physical inventory procedures. The USCG's CIP balance is at a 5·year low and
   all delivered assets are being capitalized within the established 90·day window
   from delivery. Finally, the USCG cleared the matcrial weakness for Operating
   Materials and Supplies (OM&S) by changing the accounting treatment of field-
   held OM&S to the purchases method, evaluating inventory procedures and
   results, evaluating valuation support for OM&S, and asserting to the
   completeness, existence, and valuation of the OM&S balance.

b) Budgetary Resources Management: The primary budgctary resource
   management system is not designed to manage and maintain complete budgetary
   accounting data and does not permit the necessary level of funds control, creating
   a risk for unidentified ADA violations.

c) Environmental Liabilities: The USCG lacks sufficient documented policies and
   procedures for Comprehensive Environmental Response, Compensation and
   Liability Act (CERCLA) cases. The USCG does not have sllfficient support
   related to environmenlalliabilities resulting in potentially unrecorded and
   unidenlified liabilities.

d) Financial Systems: The USCG does not have an adequate comprehensive,
   integrated accounting system to comply with the Federal Financial Management
   Improvement Act (FFMIA) system requirements and the USSGL at the
   transaction level. In FY 20 II, the USCG assessed and performed intcrnal control
   testing on general controls. However, consistent with the prior year, the lack of
   testing on application controls docs not provide assurance that internal controls
   over financial systems are adequate to detect or prevent material errors in the
   financial statements. A number of non-conformances arc a root cause that will
   limit the USCG's ability to fully remediate material weaknesses in many financial
   reporting processes. Accordingly, this condition also represents a material
   weakness in internal control over financial reporting.



                                        2
Reportable Conditions a) through d) are considered to be material weaknesses.

Resolution of prior year Material Weaknesses:

The USCG has reduced the following areas from Material Weaknesses in FY 2010 to
Reportable Conditions in FY 2011:

   aj Funds Balance with Treasury (FBwT) I General Ledger (GL) Management
      Function: As part of the FY 2011 internal control assessment process, the USCG
      management identified significant deficiencies in the internal controls over
      financial reporting for FBwT. Specifically, the lack of effectively designed and
      implemented processes and controls for the processing and supporting of Intra-
      GovcrnmcOlal Payment and Collection (lPAC) transactions, the use of suspense
      accounts, processing manual journaJ vouchers, and the complexity/obsolescence
      of systems that capture financial data continue to limit the USCG's ability to fully
      rely on internal controls for financial reponing in these areas. Although the
      assessment results indicated further internal control improvements are necessary,
      these deficiencies in aggregate did not rise to the level of a Material Weakness for
       FY 201 I.

   b) Receivables Management / Revenue Management: As part of the internal
      control assessment process, the USCG management identified significant
      deficiencies in the internal controls over financial reporting for the Accounts
      Receivable processes. Specifically, the lack of policy and procedures for
      processing reimbursable transactions, allowance for doubtful accounts and
      interest receivable processes, the lack of effectively designed and implemented
      processes and controls for processing and supporting WAC transactions and the
      complexity/obsolescence of systems that capture financial data continue to limit
      the USCG's ability to fully rely on internal controls for financial reporting in
      these areas. Although the assessment results indicated further intcrnal control
      improvements are necessary, these deficiencies in aggregate did not rise to the
      level of a Material Weakness for FY 20 II.

   c) Accounts Payable: As part of the internal control al;scssment process, the USCG
      management identified significant dcficiencies in the internal controls ovcr
      financial reporting for the Accounts Payable processes. Specifically, inconsistent
      compliance with policies and procedures by business units, the lack of cffectively
      designed and implemented processes and controls for processing and supporting
      JPAC transactions, lack of effective controls for calculating period end accruals,
      and the complexity/obsolescence of systems that caplure financial data continue
      to limit the USCG's ability to fully rely on intcrnal conlrols for financial reporting
      in these areas. Although the assessment results indicated further internal control
      improvements are necessary, these deficiencies in aggregate did not rise to the
      level of a Material Weakness for FY 20 II.




                                             3
Reporting Pursuant to FMFIA Section 4. 31 U.s.C.3512 (d)(2)(B)

The USCG's financial management systems do not conform to government-wide
requirements. The areas of nonMconformance listed below have been documented. The
USCG is continuing to execute and update, as appropriate, mission action plans (MAPs)
to remediate the following:

   a) U.S. Standard General Ledger (USSGL): The designs of the USCG's financial
        and mixed systems do not fully reflect financial information classification
        structures that arc consistent with the USSGL and provide for tracking of specific
        program expenditures.

   b) Integration of Financial and Mixed Systems: The lack of integration of the
        USCG's financial and mixed systems precludes the usc of common data elements
        to meet reporting requirements, and to collect, store, and retrieve financial
        information. Similar kinds of transactions are not processed throughout the
        systems using common processes, which could result in data redundancy and
        inconsistency.

   c) Financial Reporting and Budgets: The USCG's financial and mixed systems do
      not allow for financial statements and budgets to be prepared, executed, and
      reported in accordance with the requirements prescribed by the OMB, the U.S.
      Department of Treasury, and/or the Federal Accounting Standards Advisory
      Board (FASAB).

   d) Laws and Regulations: The USCG's financial and mixed systems do not include
      a system of internal controls that ensures: resource usc and financial reporting are
      consistent with laws, regulations, and policies; resources arc safeguarded against
      waste, loss, and misuse; reliable data is obtained, maintained, and disclosed in
      reports; and transactions are processed in accordance with Generally Accepted
      Accounting Principles (GAAP).

   c) System Adaptability: The USCG does not evaluate how effectively and
      efficiently the financial and mixed systems support USCG's changing business
      practices and make appropriate modifications to its information systems.

   f)   Risk Assessment and Security: The USCG has legacy financial and mixed
        systems that were developed without the benefit of today's security practice
        requirements. Because USCG lacks modern security evaluation software,
        intensive manual intervention is required 10 ensure proper security controls,
        oversight, and auditing occurs to meet OMB and DHS security policies. Some of
        the legacy financial and mixed systems were developed prior to lhe
        implementation of some of these regulations. and are therefore, not designed to
        comply with lhem.




                                             4
       g) Documentation and Support: Adequate systems maintenance, technical
          systems documentation, training, and user support is not consistently available to
          enable users of all of thc financial and mixed systems to understand, maintain,
          and operate the systems in an effective and efficient manner.

       h) Physical and Logical Controls: The USCG's financial and mixed systems
          contain weaknesscs in the standardization of physical and logical controls and
          segregation of duties.

       i) Cost Accounting Integration: The USCG's financial and mixed systcms do not
          allow for the conformance with Managerial Cost Accounting Concepts and
          Standards Statement of Federal Financial Accounting Standards Number 4
          (SFFAS 4).

    Reporting Pursuant to the Reports Consolidation Act. Section 3516(e)

    The USCG provides reasonable assurance that the performance data used in the Annual
    Financial Report are complete and reliable.




,




                                               5
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Office of National Drug and Control Policy

                      Associate Director for Planning and Budget

                      United States Coast Guard

                      Commandant
                      Chief Financial Officer
                      Chief Information Officer

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
